A,

IN THE SUPREME COURT OF THE STATE OF NEVADA
No. 77763

IN THE MATTER OF THE ESTATE OF
KATHERINE E. HILL, A/K/A,
KATHERINE DIANE HILL, A/K/A
KATHERINE DIANE HILL-FORD,
A/K/A KATHERINE DIANE
HAMMOND, A/K/A KATHERINE
DIANE SCOTT, A/K/A C ATHERINE
DIANE HILL.

i

pj! j .

§

LAWRENCE W. FORD,
Appellant,
vs.
ANITA L. BUDDE,
Respondent.
ORDER DENYING PETITION FOR REVIEW
Review denied. NRAP 40B.1
It is so ORDERED.

., C.J.
Pickering

Hardesty

J-

\

Parraguirre

, JStiglich

, JCadish
J.

Silver

M

^he Honorable Mark Gibbons, Justice, did not participatej^the^
upflaiE Court
of

Nevada
1947a

decision of this matter.

SjlSutoL

‘-e

,

A

cc:

Hon, Lynne K. Simons, District Judge
Lawrence W. Ford
Robison, Sharp, Sullivan & Brust
Reed Law Offices, PLLC
Washoe District Court Clerk

iupaeme Court

or
Nevada

l

2

i) IM7A

~7T~

“

»'

•

."..f

.w-

*

Pa

IN THE COURT OF APPEALS OF THE STATE OF NEVADA

IN THE MATTER OF THE ESTATE OF
KATHERINE E. HILL, A/K/A
KATHERINE DIANE HILL, A/K/A
KATHERINE DIANE HILL-FORD,
A/K/A KATHERINE DIANE
HAMMOND, A/K/A KATHERINE
DIANE SCOTT, A/K/A CATHERINE
DIANE HILL.
LAWRENCE W. FORD
Appellant,
vs.
ANITA L. BUDDE,
Respondent.

No. 77763-COA

AUG 2 h 2020
ELIZABETH A. BROWN
CLERKpF SUPREME COURT
rv
^
DEPUTY CLERK S

ORDER GRANTING REHEARING IN PART,
DENYING IN PART, AND AFFIRMING
This is a petition for rehearing of this court’s April 27, 2020,
order of affirmance arising from an underlying probate matter. Having
considered the petition and related filings, we conclude that rehearing of
this matter is warranted only as it relates to appellant Lawrence W. Ford’s
argument regarding whether the district court considered his objection to
respondent Anita L. Budde’s petitions, which sought, among other things,
to settle and approve the report of administration and estate accounting.
Accordingly, we grant rehearing and reinstate this appeal for the limited
purpose of revising the grounds on which this court addressed Ford’s
assertion that his objection was not considered. See NRAP 40(e). To the

irt of

Appeals

of

Nevada
1947B <n^gjn>

alO

extent Ford seeks rehearing on other issues related to this court’s April 27
order of affirmance, his petition is denied. See NRAP 40(c).
On appeal, Ford faults the district court for stating, at the
hearing on Budde’s petitions, that it had not seen an objection filed. Based
upon that statement and the fact that the district court’s order does not
specifically address his objection or the arguments contained therein, he
asserts that the district court did not properly review all of the evidence
presented.

But the relevant transcripts and the court’s order indicate

otherwise. While the district court judge did initially state that she did not
see Ford’s objection, the court subsequently corrected that statement after
questioning from Budde’s counsel, noting that she did, in fact, have the
objection. Moreover, the district court judge correctly noted that Ford’s
objection only related to certain parts of the petition, which demonstrates
that the court reviewed it. Additionally, the order noted the objection, noted
when it was filed, stated that all of the pleadings and evidence on file were
reviewed, and set forth that the report and accounting were approved over
Ford’s objection.1

irTo the extent Ford asserts that these statements in the district
court’s order cannot demonstrate that the judge reviewed the objection
because the order was drafted by Budde’s counsel, that argument lacks
merit. See Mortimer v. Pac. States Sav. & Loan Co., 62 Nev. 142, 153, 145
P.2d 733, 735-36 (1944) (holding that a district court’s formal written order
controls over a conflict with the minute order, regardless of the fact that the
written order was prepared by one of the parties, and noting that the “court
is presumed to read and know what it signs”).

rt of Appeals
of

Nevada

2

h

r"

t9

L

/

Under these circumstances, Ford’s assertions that his objection
was not considered are unfounded, and his argument in this regard lacks
merit.

Accordingly, we affirm the district court’s resolution of Budde’s

petitions.
It is so ORDERED.

,

C.J.

,

J-

,

J-

Gibbons

Tao

Bulla

cc:

jrt of

Hon. Lynne K. Simons, District Judge
Lawrence W. Ford
Robison, Sharp, Sullivan & Brust
Reed Law Offices, PLLC
Washoe District Court Clerk

Appeals

of

Nevada

3

IN THE COURT OF APPEALS OF THE STATE OF NEVADA

IN THE MATTER OF THE ESTATE OF
KATHERINE E. HILL, A/K/A
KATHERINE E^IANE HILL, A/K/A
KATHERINE DIANE HILL-FORD,
A/K/A KATHERINE DIANE
HAMMOND, A/K/A KATHERINE
DIANE SCOTT, A/K/A CATHERINE
DIANE HILL.

No. 77763-COA

APR 27 2020
CLERKja
5Y,

LAWRENCE W. FORD,
Appellant,
vs.
ANITA L. BUDDE,
Respondent.______

cSESBepi

CLERK.

ORDER OF AFFIRMANCE
Lawrence W.- Ford appeals from various orders entered in a
probate matter. Second Judicial District Court, Washoe County, Lynne K.
Simons, Judge.
Respondent Anita Budde filed a petition for probate of
Katherine Diane Hill-Ford's will and issuance of letters testamentary. Ford
filed an objection to probate and contest of will and issuance of letters
testamentary. After an evidentiary hearing, the court entered an order on
March 16, 2018, that admitted the will to probate and ordered that it be
administered pursuant to its terms subject to revocation by the
pretermitted spouse, Ford, per statute. The court further appointed Budde
as the personal representative of the estate and directed that letters

hurt of

Appeals

of

Nevada
)) 1947B

'2.0-I52M-I

testamentary issue to her. In addition, the court ordered that the estate be
distributed one-half to Ford and one-half to Budde, regardless of the
characterization of the assets as community or separate property, and set
aside all of the personal property located at the property where Hill-Ford
had resided to Ford without limitation. Following the entry of this order on
March 16, 2018, a notice of entry was served on March 19, 2018, but no
appeal was taken from that determination.
Subsequently, Budde filed a document which included a report
of administration, an estate accounting, and a petition to settle and approve
the report of administration and estate accounting. It also included various
petitions for payment or reimbursement of fees or expenses and a petition
for final distribution of the estate. Budde also filed a motion for attorney
fees and costs under NRCP 68.1 Ford opposed Budde’s filings. He also filed
a motion to relieve and sanction Budde’s counsel and, on September 28,
2018, he filed a motion for a new trial under NRCP 59 and for relief from
judgment under NRCP 60(b). The motion for NRCP 59 and 60 relief related
to the March 16, 2018, order, which Ford did not appeal. After a hearing on
the matter, the district court approved Budde’s petitions, granted her
motion for costs under NRCP 68, denied her motion for attorney fees under
NRCP 68 and denied Ford’s motions. This appeal followed.
!The Nevada Rules of Civil Procedure were amended effective March
1, 2019. See In re Creating a Comm, to Update & Revise the Nev. Rules of
Civil Procedure, AHKT 0522 (Order Amending the Rules of Civil Procedure,
the Rules of Appellate Procedure, and the Nevada Electronic Filing and
Conversion Rules, December 31, 2018). Accordingly, we cite the prior
version of the rules herein.

ourt of

Appeals

Nevada
0) 1947B

2

T

In probate matters, we defer to the district court’s findings of
fact and review legal questions de novo. See Waldman v. Maini, 124 Nev.
1121, 1129-30, 195 P.3d 850, 856 (2008). On appeal, Ford first argues that
the district court made errors in its approval of Budde s petitions and that
collectively, these errors show a lack of diligence which requires reversal.
Specifically, Ford argues that the court erred when it stated that the
residence was titled and acquired prior to his marriage to Hill-Ford when it
was actually acquired and titled after the marriage. But this statement was
made at the evidentiary hearing resulting in the March 16, 2018, order, not
the hearing on Budde’s petitions. And since Ford did not appeal the March
16 order, this issue is not properly before us.
Additionally, Ford faults the court for stating at the hearing on
Budde’s petitions that it had not seen an objection filed to the petitions.
Based upon that statement and the fact that the order does not specifically
address his objection, or the arguments contained therein, he asserts that
the district court did not properly review all of the evidence presented. But
the relevant transcripts and the order indicate otherwise.

Specifically,

while the judge initially made the statement Ford asserts was in error, at a
later hearing, just prior to giving the ruling on the matter, the judge stated
that she had spent quite a bit of time reviewing everything in the case and
that the report and accounting were approved over Ford’s objection.
Additionally, the order noted the objection, noted when it was filed, stated
all of the pleadings and evidence on file were reviewed and set forth that
the report and accounting were approved over Ford’s objection. Therefore,
as Ford’s assertions are unfounded, his argument in this regard lacks merit.

3URT of Appeals
Nevada

3

►

Ford also argues the district court erred by awarding Budde
reimbursement for the cost of a stove she incurred to replace the stove that
Ford took from the property where Hill-Ford had resided. He argues that
since he was awarded all personal property at the residence he had a right
to take the stove and therefore, the cost to replace it should not be
reimbursed.

But, regardless of whether the stove would be considered

personal property, NRS 150.010 states that a personal representative, such
as Budde, must be allowed all necessary expenses in the administration of
the estate. And we discern no abuse of discretion in the court s decision to
allow reimbursement of this expense, as it was incurred in preparing the
residence for sale. Thus, for the reasons set forth above, we discern no error
in the district court’s resolution of Budde’s petitions.
Ford further argues that the district court abused its discretion
in denying his motion to disqualify counsel based upon an alleged conflict
of interest. Based upon our review of the arguments and record before us,
we cannot say that the district court manifestly abused its discretion in
denying the motion to disqualify.

See Nev. Yellow Cab Corp. v. Eighth

Judicial Dist. Court, 123 Nev. 44, 54, 152 P.3d 737, 743 (2007) (noting that
the district court has broad discretion in matters of disqualification and that
a district court’s order on disqualification will not be set aside absent a
manifest abuse of that discretion).
Ford also asserts that the district court abused its discretion in
■ denying his motion for a new trial and for relief from judgment related to
the March 16, 2018, order entered following the evidentiary hearing. But

>urt of Appeals

Nevada
) I947B

4

that motion was not timely filed and thus, it was properly denied.2 See
NRCP 59(b) (providing that “[a] motion for a new trial shall be filed no later
than 10 days after service of written notice of the entry of the judgment ),
NRCP 60(b) (providing that motions under subsection (b)(1), (2), or (3) must
be filed no more than 6 months from the date written notice of entry was
served); see also Rosenstein v. Steele, 103 Nev. 571, 575, 747 P.2d 230, 233
(1987) (providing that the appellate courts “will affirm the order of the
district court if it reached the correct result, albeit for different reasons.”)•
Lastly, Ford argues that the district court abused its discretion
in awarding costs under NRCP 68 because the court failed to analyze the
factors set forth in Beattie v. Thomas, 99 Nev. 579, 588-89, 668 P.2d 268,
274 (1983). We note that the court expressly stated that it had spent quite
a bit of time reviewing everything in th[e] case” and gave careful
consideration as to whether to award fees and costs under NRCP 68. And
Budde’s motion requesting attorney fees and costs under NRCP 68 contains
significant discussion of the Beattie factors,

including specifically

addressing them with regard to the request for costs. While the court did
not explicitly discuss the Beattie factors at the hearing, with the exception
of whether the fees sought were reasonable and justified m amount, we
cannot say that the district court, in light of its extensive review, failed to
>

*.■

2To the extent Ford argues that there was fraud upon the court which
would allow the NRCP 60(b) motion to be filed past the 6 month limitation
period, that argument is without merit. See NC-DSH, Inc. v. Garner, 125
Nev. 647, 218 P.3d 853 (2009) (discussing the requirements for showing
fraud upon the court such that relief may be obtained beyond NRCP 60(b)’s
six-month limitation period).

ourt of

Appeals

Nevada
D) 1947B *4

5

V'
■ /

consider the Beattie factors in awarding costs to Budde.

Based on the

foregoing, and given that the award is otherwise supported by substantial
evidence, including the verified cost memorandum, we affirm that decision.
MEI-GSR Holdings, LLC v. Peppermill Casinos, Inc., 134 Nev. 235, 245, 416
P.3d 249, 258-59 (2018) (setting forth the requirements for upholding an
NRCP 68 based award in the absence of explicit findings as to the Beattie
factors).
Based on the foregoing, we
ORDER the judgment of the district court AFFIRMED.3

.

C.J.

Gibbons

JTao

J.
Bulla

3To the extent that Ford raises arguments that are not specifically
addressed herein, we have considered the same and conclude they do not
provide a basis for relief.

urt of Appeals
of

Nevada
1947B

6

i

>

cc:

Hon. Lynne K. Simons, District Judge
Lawrence W. Ford
Robison, Sharp, Sullivan & Brust
Reed Law Offices, PLLC
Washoe District Court Clerk

>

Court

Appeals
OF

of

Nevada
(O) 1947B

:

7

